No.20-20
IN rHp

$upreme @ourt tttbe @nite!

btstts

BnNrro CasaNovA,
Petition er,
V

INrnnNauoNAL AssocmrloN oF MacruNrslrs, Local 701,
Respondent

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE

I, Lauren Noto, of lawful age, upon my oath state that I did, on the 3rd day of
September, 2020, serve an electronic copy of the BRIEF IN OPPOSITION in the
above-entitled case to all parties required to be served, who consented to electronic
service only:
Aaron B. Solem
(Coun sel of Record)

William Messenger

clo National Right to Work Legal

Defense Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
703.321.8510
abs@nrtw.org

I certify under penalty of perjury that the foregoing is true and correct

Lauren Noto
Executed on the 3rd day of September, 2020

